Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





    CONSECUTIVE MEDICARE 

       INPATIENT STAYS





                     Inspector General

                       June 2005
                     OEI-03-01-00430
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees state Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆   E X E C U T I V E                                     S U M M A R Y


                  OBJECTIVE
                  To review services provided to beneficiaries with consecutive Medicare
                  inpatient stays involving acute care hospitals, rehabilitation units,
                  psychiatric units, and skilled nursing swing beds in acute care hospitals
                  to determine: (1) whether there were problems with quality of patient
                  care, (2) whether services were unnecessarily fragmented across
                  consecutive inpatient stays, and (3) whether care was medically
                  necessary and reasonable.


                  BACKGROUND
                  This inspection focuses on consecutive inpatient stays in fiscal year (FY)
                  2002 involving acute care hospitals and three types of inpatient
                  facilities that may be found within acute care hospitals: rehabilitation
                  units, psychiatric units, and skilled nursing swing beds. For purposes
                  of this review, we define the term “consecutive inpatient stays” as a
                  sequence of three or more individual inpatient facility stays for the
                  same Medicare beneficiary, where the admission date for each
                  successive stay occurs within 1 day of the discharge date for the
                  preceding stay.

                  There were 63,345 sequences of consecutive inpatient stays
                  (210,555 individual stays) involving one or more of these four facility
                  types in FY 2002. Medicare payments for these stays totaled $1.9
                  billion. These are payments from the Medicare Hospital Insurance
                  Trust Fund and do not include any beneficiary payment amounts (i.e.,
                  deductibles and coinsurance).

                  Medicare fiscal intermediaries are responsible for ensuring that
                  inpatient rehabilitation, inpatient psychiatric, and skilled nursing
                  swing bed services are medically necessary and billed and paid
                  appropriately. Medicare Quality Improvement Organizations (QIOs)
                  are responsible for reviewing acute care hospital services for medical
                  necessity and correct coding, and are required to review instances in
                  which acute care hospitals may try to circumvent the prospective
                  payment system through actions such as premature discharges,
                  inappropriate transfers, and inappropriate or early readmissions. The
                  QIOs are also responsible for reviewing services rendered by all types of
                  Medicare providers to ensure that the quality of services met
                  professionally recognized standards of health care.



OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S          i
E X E C U T I V E                        S U           M M A R Y


                   Fiscal intermediaries ceased performing routine medical reviews of
                   inpatient hospital services in 1982, when the Peer Review
                   Organizations (now known as QIOs) were created. However, QIOs do
                   not currently conduct routine case reviews of inpatient hospital services
                   for the express purpose of identifying potential quality of care concerns
                   or identifying activities that may suggest potential circumvention of the
                   prospective payment system.

                   We reviewed FY 2002 Medicare inpatient facility services and identified
                   sequences of consecutive inpatient stays that contained one or more of
                   the four types of facilities included in our review. We selected a
                   stratified-cluster sample of sequences of consecutive inpatient stays and
                   collected beneficiaries’ medical records for these stays from inpatient
                   facilities. We forwarded the medical records for 120 sample sequences
                   (407 individual stays) to an independent medical review contractor.
                   Three physicians of internal medicine reviewed these medical records
                   and answered questions about each individual stay. Then, to analyze
                   the consecutive nature of these stays, physicians assessed each
                   sequence of stays in its entirety as a single episode of care.


                   FINDINGS
                   Twenty percent of consecutive inpatient stay sequences were
                   associated with poor-quality care and/or unnecessary fragmentation
                   of care. The majority of sequences of consecutive inpatient stays
                   reviewed were medically necessary and appropriate. However,
                   20 percent of sequences were associated with (1) quality of care
                   problems that significantly contributed to the need for multiple
                   inpatient stays, and/or (2) unnecessary fragmentation of health care
                   services across multiple inpatient stays in a sequence. Medicare paid
                   an estimated $267 million for these sequences of stays in FY 2002.

                   Examples of quality of care problems included failure to treat patients
                   in a timely manner, inadequate monitoring and treatment of patients,
                   and inadequate care planning. Unnecessary fragmentation of services
                   involved cases in which care provided across sequences of multiple
                   inpatient stays may have been necessary and appropriate but should
                   have been consolidated into fewer stays. In sequences containing swing
                   bed stays, most instances of unnecessary fragmentation of care resulted
                   from unwarranted transfers between acute care and swing bed stays.




 OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S         ii
E X E C U T I V E                        S U           M M A R Y


                   Poor-quality care was also a problem within individual stays. As
                   stated in the first finding, reviewers found quality of care problems
                   associated with sequences of consecutive inpatient stays. Reviewers
                   also found quality of care issues in their stay-specific reviews of the 407
                   individual inpatient stays within sample sequences. We estimate that
                   10 percent of individual inpatient stays in consecutive inpatient stay
                   sequences involved problems with the quality of patient care. Medicare
                   paid an estimated $171 million in FY 2002 for these stays.

                   An additional 3 percent of individual stays were not associated with
                   poor-quality care, but did involve medically unnecessary admission and
                   treatment, medically inappropriate care setting, treatment that was not
                   appropriate to the type of unit or hospital where it occurred, and/or
                   premature discharge.


                   RECOMMENDATIONS
                   To address the Medicare program vulnerabilities discussed in this
                   report, we recommend that CMS:
                   (1) Direct QIOs to monitor the quality of inpatient services provided
                   within sequences of consecutive Medicare inpatient stays involving
                   acute care hospitals, skilled nursing swing beds, rehabilitation units,
                   and psychiatric units; and (2) encourage QIOs and fiscal
                   intermediaries, as appropriate, to monitor the medical necessity and
                   appropriateness of inpatient services provided within these
                   sequences of consecutive Medicare inpatient stays.
                   This monitoring should consist of periodic reviews of a sample of inpatient
                   services that were part of sequences of consecutive inpatient stays to
                   target the types of problems found during this inspection, including poor
                   quality of care and unnecessary fragmentation of care.
                   (3) Reinforce efforts to educate providers about the appropriate uses
                   of skilled nursing swing beds.
                   CMS and its contractors should ensure that physicians and other acute
                   care hospital staff understand and comply with Medicare rules regarding
                   the appropriate uses of skilled nursing swing beds in acute care hospitals.

                   In addition to these recommendations, we will forward information on
                   cases that reflected poor quality of patient care, unnecessary
                   fragmentation of services, medically unnecessary admission and
                   treatment, and inappropriate treatment and setting of care to CMS for
                   review and appropriate action.


 OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S          iii
E X E C U T I V E                        S U           M M A R Y 




                   AGENCY COMMENTS
                   CMS concurred with the OIG’s assessment of consecutive Medicare
                   inpatient stays, but believes that existing mechanisms already largely
                   address our recommendations. CMS stated that periodic reviews of
                   sequences of consecutive inpatient stays are not warranted and contended
                   that current QIO activities functionally cover the first and second of OIG’s
                   recommendations. CMS agreed with OIG’s third recommendation and
                   indicated that it will prepare a “Medlearn Matters” provider education
                   article that will reference appropriate manual sections to remind providers
                   of the appropriate uses of skilled nursing swing beds.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We continue to believe that CMS should direct QIOs to monitor the
                   quality of services provided within sequences of consecutive inpatient
                   stays, and should encourage QIOs and fiscal intermediaries to monitor
                   the medical necessity and appropriateness of inpatient services provided
                   within these sequences of stays. We recognize that QIOs and fiscal
                   intermediaries may examine selected individual inpatient stays for
                   medical necessity, proper coding, and, in some cases, quality of care.
                   However, current efforts do not focus on sequences of consecutive
                   inpatient stays and could not detect the types of problems we found in
                   our review.

                   CMS stated that QIOs conduct provider-wide quality improvement
                   activities and review beneficiary complaints about the quality of care
                   delivered in any setting. QIOs’ quality improvement projects, conducted
                   as part of CMS’s Health Care Quality Improvement Program, are
                   strictly voluntary collaborations between QIOs and providers to promote
                   optimal care practices. These projects do not involve any routine or
                   provider-specific case reviews to evaluate quality of care. We
                   acknowledge that QIOs are required to conduct specific types of case
                   reviews in response to beneficiary complaints. However, these are
                   reactive, case-by-case reviews that do not reflect broad monitoring for
                   quality that periodic reviews of a random sample of sequences of
                   consecutive Medicare inpatient stays would afford.

                   CMS noted that QIOs conduct case reviews of inpatient hospital
                   services as part of the Hospital Payment Monitoring Program. It is our
                   understanding that the Clinical Data Abstraction Centers screen a large
                   sample of individual inpatient services for medical necessity and proper
                   coding of services. Sample services are not screened for potential

 OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S        iv
E X E C U T I V E                        S U           M M A R Y


                   quality of care concerns. Only individual inpatient services that fail to
                   pass the initial screening process undergo a QIO case review, where
                   quality of care concerns may be detected. Since individual inpatient
                   stays are sampled, the Clinical Data Abstraction Center’s screening
                   process could not detect problems within sequences of consecutive
                   inpatient stays.

                   Additionally, CMS stated that fiscal intermediaries “will continue to
                   actively pursue data analysis efforts regarding consecutive inpatient
                   stays and perform medical review if aberrant billing patterns are
                   defined.” We are not aware that fiscal intermediaries have ever
                   conducted or are currently conducting data analysis and/or medical
                   review activities regarding the sequences of consecutive inpatient stays
                   we included in our inspection. According to Chapter 1 of the “Medicare
                   Program Integrity Manual,” fiscal intermediaries alone could not
                   conduct such reviews, as QIOs are the sole entities responsible for
                   oversight of inpatient acute care hospital services.

                   We support CMS’s planned effort to prepare and distribute a “Medlearn
                   Matters” provider education article to remind providers of the
                   appropriate uses of skilled nursing swing beds.




 OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S          v
∆
   T A B L E            O F            C O N T E N T S



          EXECUTIVE SUMMARY ......................................... i



          INTRODUCTION ................................................ 1



          FINDINGS ....................................................... 9

                      Poor quality and unnecessary fragmentation of care in 

                      consecutive inpatient stay sequences . . . . . . . . . . . . . . . . . . . . . . . . 9 


                      Poor quality of care in individual inpatient stays . . . . . . . . . . . . . 11 



          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 



          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                      Appendix A: Estimates and Confidence Intervals . . . . . . . . . . . . 16 


                      Appendix B: Centers for Medicare & Medicaid Services’ 

                      Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 



          E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19



          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

..     INTRODUCTION
                    OBJECTIVE
                    To review servces provided to beneficiaries with consecutive Medicare
                    inpatient stays involving acute care hospitals, rehabilitation units,
                    psychiatric units, and skiled nursing swing beds in acute care hospitals
                    to determine: (1) whether there were problems with quality of
                                                                                       patient
                    care, (2) whether services were unnecessarily fragmented across
                    consecutive inpatient stays, and (3) whether care was medically
                    necessary and reasonable.


                    BACKGROUND
                    The Social Security Act of 1965 (the Act) established Medicare, which
                    now provides health insurance coverage to Americans over the age of
                    65, certain people with disabilities, and people with end .stage renal
                    disease. Medicare Part A provides insurance for inpatient care in acute
                    care and other types of hospitals and in skilled nursing facilities. It also
                    covers hospice care and some home health care.
                    Consecutive Medicare Inpatient Stays.
                    This inspection focuses on consecutive inpatient stays in fical year (FY)
                    2002 involving acute care hospitals and three types of inpatient
                    facilities that may be found within acute care hospitals: rehabilitation
                    units, psychiatric units, and skiled nursing swing beds.
                   For purposes of this review, we define the term "consecutive inpatient
                   stays" as a sequence of three or more individual inpatient facility stays
                   for the same Medicare beneficiary, where the admission date for each
                   successive sta, occurs within 1 day of the discharge date of the
                   preceding stay.
                   Medicare Payments for Consecutive Inpatient Stays.
                   Medicare Part A payments for all inpatient facility stays in FY 2002
                   totaled $101 billion. Payments to the four inpatient facility types
                   included in this review accounted for $84 billion of this totaL As shown
                   in Table 1, more than $1.9 billion ofthese Medicare payments were for
                   63,345 sequences of consecutive inpatient stays (210,555 individuat
                   stays) involving one or more of the four facility types in our review. All
                   Medicare payment amounts presented in this report reflect payments
                   made from the Medicare Hospital Insurance Trust Fund and do not
                   include any payments from beneficiaries. Medicare beneficiaries are
                   responsible for payment of deductibles and coinsurance. Medicaid or
                   private insurance policies may cover these costs.

 OEI-03.01-00430   CONSECUTIVE MEDICARE INPATIENT STArS
                                                                                           1
I N T R O D        U C T             I O N 




                      Table 1: Medicare Payments for Inpatient Stays, FY 2002

                                                                All Inpatient Stays                   Consecutive Inpatient Stays
                      Type of
                                                        Number of                         Medicare    Number of            Medicare
                      Inpatient
                                                           Stays                         Payments        Stays            Payments
                      Stay
                      Acute Care                        10,815,587                  $79,312,786,735      140,713     $1,394,870,199
                      Hospital
                      Rehabilitation                         271,517                 $2,838,128,268       38,719       $372,537,620
                      Unit
                      Psychiatric                            331,098                 $2,123,306,086       18,830       $110,004,471
                      Unit
                      Skilled                                  76,617                 $160,927,083        12,293        $27,669,595
                      Nursing Swing
                      Beds
                        Totals                          11,494,819                  $84,435,148,172      210,555     $1,905,081,885
                    Source: Centers for Medicare & Medicaid Services, Medicare Provider Analysis and Review file, FY 2002

                    Medicare Payment Systems.
                    Acute care hospitals Section 1886(d) of the Act established the
                    prospective payment system for Medicare acute care hospital services
                    effective October 1, 1983. Under this system, the Centers for Medicare
                    & Medicaid Services (CMS) pay a hospital a fixed, predetermined
                    amount for each acute care stay, depending on the diagnosis related
                    group code assigned to the stay.1
                    Inpatient units in acute care hospitals CMS also uses prospective payment
                    systems to reimburse for care in inpatient rehabilitation units
                    (beginning January 1, 2002) and skilled nursing swing beds (beginning
                    July 1, 2002). Swing beds are located in hospitals that have special
                    approval to use these beds, as needed, to provide either acute care or
                    skilled nursing care.

                    In November 2003, CMS issued a proposed rule to implement a
                    prospective payment system for inpatient psychiatric hospitals and
                    units that would have become effective in April 2004. However, CMS
                    has delayed issuing the final rule to implement the prospective payment
                    system for inpatient psychiatric care due to the late publication of the
                    proposed rule. At present, Medicare continues to pay for inpatient
                    psychiatric care using a cost-based reimbursement system.
                    Oversight of Inpatient Hospital Care.
                    Fiscal intermediaries Pursuant to section 1816(a) of the Act and
                    42 CFR § 421.100, CMS contracts with fiscal intermediaries to pay
                    claims for health care services provided to beneficiaries by hospitals and
                    other inpatient facilities, and to ensure that the services rendered by
                    these facilities are covered by the program. Fiscal intermediaries are

 OEI-03-01-00430    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S                                                   2
I N T R O D        U C T             I O N


                    also responsible for ensuring that inpatient rehabilitation, inpatient
                    psychiatric, and skilled nursing swing bed services are medically
                    necessary and reasonable and are billed and paid appropriately, as
                    required by 42 CFR § 421.100 and Chapter 1 of the “Medicare Program
                    Integrity Manual.” Fiscal intermediaries ceased routine medical review
                    of inpatient hospital services with the advent of CMS’s peer review
                    program.
                    Quality Improvement Organizations Under the authority of the Peer
                    Review Improvement Act of 1982, CMS contracted with groups of
                    licensed physicians in each State to ensure the quality, effectiveness,
                    efficiency, and economy of hospital care provided to Medicare
                    beneficiaries. Section 1154(a) of the Act stipulates that Peer Review
                    Organizations, now called Quality Improvement Organizations (QIOs),
                    must review health care services rendered by all types of Medicare
                    providers to ensure that the quality of services meets professionally
                    recognized standards of health care. As part of the Hospital Payment
                    Monitoring Program, the QIOs are also responsible for ensuring that
                    acute care hospital services provided to Medicare beneficiaries are
                    medically necessary and reasonable and are billed correctly.

                    Section 1886(f)(2) of the Act provides specific actions that the Secretary
                    may take when QIOs determine that a Medicare provider took an action
                    with the intent of circumventing the prospective payment system. The
                    Act prohibits hospitals from admitting patients unnecessarily,
                    admitting them unnecessarily multiple times, or engaging in other
                    inappropriate practices designed to circumvent the prospective payment
                    system. Section 4255(C) of the “Quality Improvement Organization
                    Manual” specifies prohibited actions that are considered circumventions
                    of the prospective payment system including premature discharges,
                    inappropriate transfers, and inappropriate or early readmissions. If a
                    QIO establishes that an acute care hospital has been taking actions
                    with the intent of circumventing the prospective payment system, the
                    QIO may deny admissions, initiate a sanction report and
                    recommendation, or refer the cases to the Office of Inspector General
                    (OIG) for potential termination of its Medicare provider agreement.

                    Originally, QIOs depended heavily upon medical case reviews of random
                    samples of individual inpatient stays to determine medical necessity
                    and quality of care. However, during the mid-1990s, individual case
                    review activities were replaced with quality improvement projects
                    conducted as part of CMS’s Health Care Quality Improvement Program.


 OEI-03-01-00430    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S          3
I N T R O D        U C T             I O N


                    Unlike case reviews, the quality improvement projects depend upon
                    voluntary collaborations between QIOs, hospitals, and physicians to
                    improve adherence to optimal care practices.

                    Currently, QIOs do not conduct routine case reviews of inpatient
                    hospital services for the express purpose of identifying potential quality
                    of care concerns or potential circumventions of the prospective payment
                    system. However, QIOs are required to conduct specific types of case
                    reviews to fulfill mandatory requirements including beneficiary
                    complaints, alleged anti-dumping violations, gross and flagrant
                    violations,2 and Hospital Payment Monitoring Program cases. QIOs can
                    refer cases to OIG for sanction as a result of case reviews. However, the
                    numbers of monetary penalties and exclusions resulting from QIO
                    referrals have declined significantly since the early 1990s.
                    Related Office of Inspector General Work.
                    Since the implementation of the prospective payment system for acute
                    care hospitals, OIG has conducted a number of audits to determine
                    whether acute care hospitals are engaged in activities to maximize
                    Medicare reimbursements by circumventing prospective payment
                    system rules. These audits have focused on the implementation of
                    Medicare’s postacute care transfer policy and readmissions to the same
                    acute care hospital on the same day. In a report issued in August 2002,
                    “Review of Medicare Same-Day, Same-Provider Acute Care
                    Readmissions in Pennsylvania During Calendar Year 1998”
                    (A-03-01-00011), OIG examined a sample of medical records and found
                    that 63 of 98 readmissions were billed incorrectly because beneficiaries
                    were, in fact, admitted to a nonacute care unit within the hospital, or
                    were never actually discharged from the initial admission.

                    In addition to identifying providers with high incidences of same-day
                    readmissions, a February 2000 OIG report, “Analysis of Readmissions
                    Under the Medicare Prospective Payment System for Calendar Years
                    1996 and 1997” (A-14-99-00401), also identified cases in which
                    beneficiaries had three or more multiple, continuous readmissions to
                    the same hospital. OIG made several recommendations, including a
                    recommendation that CMS review the claims for these multiple,
                    continuous readmissions. The report also pointed out that QIOs
                    discontinued case review for random samples of acute care hospital
                    readmission claims in 1993.




 OEI-03-01-00430    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S         4
I N T R O D        U C T             I O N 




                    METHODOLOGY
                    The methodology for this inspection was composed of two parts: (1) an
                    analysis of Medicare claims for all FY 2002 inpatient facility services,
                    and (2) a medical record review of a sample of inpatient facility services.
                    Analysis of Medicare Claims.
                    We accessed CMS’s Medicare Provider Analysis and Review (MedPAR)
                    file to analyze and manipulate data for all Medicare inpatient stays in
                    FY 2002.3 We used SAS programming to identify sequences of three or
                    more consecutive inpatient stays, and then to identify those sequences
                    that contained one or more of four facility types included in our review:
                    acute care hospitals, inpatient rehabilitation units, inpatient psychiatric
                    units, and skilled nursing swing beds in acute care hospitals. We chose
                    to focus this inspection on consecutive inpatient stays involving these
                    four types of facilities because rehabilitation units, psychiatric units,
                    and skilled nursing swing beds are generally located within acute care
                    hospitals. We excluded from review all other types of inpatient facilities
                    that were involved in consecutive inpatient stays in FY 2002. For
                    sequences involving the four facility types included in our review, we
                    examined the data to determine the frequency of consecutive inpatient
                    stay sequences and to assess the characteristics of these sequences.
                    Sample Design for Medical Review.
                    The sample for this inspection consisted of sequences of three or more
                    consecutive inpatient stays for the same beneficiary involving one or
                    more of four inpatient facility types included in our review.

                    Analysis of FY 2002 MedPAR data indicated that Medicare payments
                    for individual sequences of consecutive inpatient stays ranged from a
                    low of $150 to a high of $1.3 million. Therefore, we stratified the
                    population of consecutive stay sequences by Medicare payment amount.
                    We designed three strata representing low, middle, and high Medicare
                    payment amounts per sequence. For sampling purposes, each sequence
                    was considered a cluster, or grouping, of individual inpatient stays. We
                    selected a stratified-cluster sample of sequences of consecutive stays
                    from the population of 63,345 sequences.

                    We intentionally oversampled due to concerns that open OIG
                    investigations may have prevented us from contacting some inpatient
                    facilities. As shown in Table 2 on the following page, the final sample
                    for this inspection included 120 sequences (407 individual inpatient
                    stays) for medical review.


 OEI-03-01-00430    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S           5
I N T R O D        U C T             I O N 




                      Table 2: Sample for Medical Review

                                                                                                              Sample     Stays in
                                          Sequence                          Total Medicare     Sampling   Sequences       Sample
                      Stratum             Description                            Payments        Frame    for Review   Sequences
                                          Medicare                              $631,573,087     38,007          40          125
                      1                   payment per
                                          sequence <
                                          $27,000

                                          Medicare                              $702,820,090     19,000          40          135
                                          payment per
                      2                   sequence >
                                          $27,000 and <
                                          $54,000

                                          Medicare                              $570,688,708      6,338          40          147
                      3                   payment per
                                          sequence >
                                          $54,000
                          Totals                                             $1,905,081,885      63,345         120          407

                    Source: FY 2002 MedPAR file and OIG data analyses

                    Data Collection for Medical Review.
                    Between October 2003 and March 2004, we collected medical records
                    from inpatient facilities and an independent contractor performed
                    medical reviews of these records.
                    Medical records We identified the names and addresses of the inpatient
                    facilities that billed Medicare for all stays in each sample sequence. We
                    prepared letters requesting copies of electronic and paper-based medical
                    records in support of each stay in sample sequences, and mailed medical
                    record requests to inpatient facilities.
                    Medical review We forwarded beneficiaries’ medical records for
                    120 sample sequences (407 individual stays) to an independent medical
                    review contractor. This contractor employed three physicians of
                    internal medicine to review the medical records for sample sequences.
                    The physicians used a medical review instrument jointly developed by
                    OIG and the contractor. The physicians answered specific questions
                    pertaining to each individual stay in sample sequences. Then, to
                    analyze the consecutive nature of these stays, the three physicians
                    answered questions about each sequence of stays in its entirety as a
                    single episode of care. The medical review instrument provided space
                    for the physicians to explain their responses in narrative form.




 OEI-03-01-00430    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S                                              6
I N T R O D        U C T             I O N


                    Issues for medical review For each stay within a sequence, the physicians
                    determined:

                            • 	 The health care setting for the stay and the reason for
                                admission,

                            • 	 Whether the care setting was medically appropriate,4
                            • 	 Whether the admission and treatment were reasonable and
                                medically necessary,

                            • 	 Whether the treatment provided during the stay was
                                appropriate to the type of unit or hospital where it occurred,5
                            • 	 Whether there were problems with the quality of patient care
                                during the stay,

                            • 	 Whether the patient was discharged prematurely, and

                            • 	 Whether problems with the quality of patient care during the
                                stay necessitated a subsequent stay in the sequence.

                    For each sequence of stays, the physicians determined:

                            • 	 Whether services were unnecessarily fragmented across multiple
                                inpatient stays in the sequence,6
                            • 	 Whether problems with quality of care significantly contributed
                                to the need for multiple inpatient stays in the sequence,

                            • 	 Whether premature discharge significantly contributed to the
                                need for multiple inpatient stays in the sequence, and

                            • 	 Whether it appeared that factors other than clinical
                                considerations influenced the course of patient care in the
                                sequence.
                    Data Analysis.
                    Medical review data We aggregated the medical review results to identify
                    the proportion of consecutive inpatient stays that physicians cited for
                    poor quality of patient care, medically inappropriate care setting,
                    medically unnecessary admission, premature discharge, medically
                    unnecessary or unreasonable treatment, and treatment that was not
                    appropriate to the type of unit or hospital where it occurred. We
                    analyzed the proportion of stays cited for a particular problem by
                    facility type. In addition, we identified the proportion of sequences that
                    physician reviewers cited for unnecessary fragmentation of services
                    across multiple stays, quality of care problems that significantly


 OEI-03-01-00430    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S                 7
I N T R O D        U C T             I O N


                    contributed to the need for multiple stays, premature discharge(s) that
                    contributed to the need for multiple stays, and nonclinical
                    considerations that influenced the course of patient care. We estimated
                    total Medicare payments associated with these stays and sequences.

                    We used SUDAAN software to produce weighted estimates of
                    proportions and total payments. These estimates reflect the stratified-
                    cluster sample design. Point estimates and confidence intervals for all
                    statistics presented in the findings of this report are provided in
                    Appendix A. We used qualitative data analysis software to aid in our
                    analyses of narrative explanations that physicians recorded on the
                    medical review instruments.

                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-01-00430    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S        8
∆     F I N D I N G S


  Twenty percent of consecutive inpatient stay             The majority of sequences of
                                                           consecutive inpatient stays
 sequences were associated with poor-quality
                                                           reviewed were medically
care and/or unnecessary fragmentation of care
                                                           necessary and appropriate.
                    However, reviewers determined that 20 percent of consecutive inpatient
                    stay sequences were associated with (1) quality of care problems that
                    significantly contributed to the need for multiple inpatient stays, and/or
                    (2) unnecessary fragmentation of health care services across multiple
                    inpatient stays in a sequence. Quality of care problems were defined as
                    medical errors, accidents, or patient care that did not meet
                    professionally recognized standards. Unnecessary fragmentation of
                    services involved cases where care provided across sequences of
                    multiple inpatient stays may have been necessary and appropriate, but
                    should have been consolidated to fewer stays.

                    Medicare paid an estimated $267 million in FY 2002 for sequences of
                    consecutive stays associated with poor-quality care and/or unnecessary
                    fragmentation of care. This figure represents 14 percent of total
                    Medicare payments in FY 2002 for consecutive inpatient stays involving
                    one or more of the four facility types included in our review ($1.9
                    billion).

                    Four of the sequences reviewed that were associated with poor-quality
                    care and/or unnecessary fragmentation of care also involved one or more
                    premature discharges that contributed to the need for multiple
                    inpatient stays. For these sequences, reviewers noted that patients
                    required additional evaluation or treatment that they did not receive
                    prior to discharge. In one sequence, there may not have been a need for
                    one or more of the subsequent stays had the patient received additional
                    evaluation or treatment.

                    In another three sequences associated with poor-quality care and/or
                    unnecessary fragmentation of care, reviewers were unable to identify
                    clinical factors to justify the patient’s course of care. Although there
                    were multiple inpatient stays in these sequences, reviewers could not
                    identify discernible breaks in the patient’s treatment across stays or
                    could not clearly determine the need for multiple inpatient admissions
                    in two of these sequences.




  OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S          9
F   I N D I N G 
S


                      Most quality of care problems and unnecessary fragmentation of care in
                      these sequences of consecutive inpatient stays resulted from poor
                      management of patient care.
                      Reviewers described instances of poor management of patient care in
                      almost all sequences that were cited for quality of care problems and
                      unnecessary fragmentation of services.

                      For sequences associated with quality of care problems, we classified the
                      following types of events as poor management of patient care: failure to
                      treat patients in a timely manner, inadequate monitoring and
                      treatment of patients, and inadequate care planning.

                      In one sequence, a patient was transferred from an acute care stay to a
                      skilled nursing swing bed stay and then back to an acute care stay.
                      During this sequence, the patient gained 20 pounds of fluid due to
                      overhydration. Initially, this patient required intravenous fluid to treat
                      dehydration. However, the patient had a history of heart failure. The
                      reviewer noted that medical records did not indicate that an appropriate
                      amount of monitoring took place for a patient with a history of
                      congestive heart failure. Had medical staff monitored the patient better
                      during the first acute care stay, congestive heart failure would have
                      been detected and treated earlier, and these actions would have
                      prevented the third stay in this sequence.

                      For sequences in which health care services were unnecessarily
                      fragmented across stays, reviewers indicated that better management of
                      patient care could have led to fewer inpatient stays. We classified the
                      following types of events as poor management of patient care that
                      resulted in unnecessary fragmentation of services across stays:
                      unnecessary or inappropriate transfers and readmissions, inadequate
                      assessment of patients, and inadequate care planning.
                      Most instances of unnecessary fragmentation of care in sequences
                      including skilled nursing swing bed stays resulted from unwarranted
                      transfers.
                      Unnecessary fragmentation in sequences including swing bed stays
                      occurred because there was no clinical need for a transfer to the swing
                      bed. From the medical records, reviewers could not identify a change in
                      the types of acute care services provided or a break in the continuity of
                      patient care that would have justified new admissions to the skilled
                      nursing swing bed stays. In one case, the reviewer wrote: “The record
                      as sent to me was organized as one stay (e.g., all progress notes
                      together, all labs together, etc.), and that indeed was what it was. I

    OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S        10
F    I N D I N G       S


                      separated the pages by dates and could find no clinical reason for
                      dividing this patient’s course into four stays.” Reviewers noted that the
                      change in patients’ status did not appear to be justified and thus
                      resulted in additional inpatient admissions that were not needed.

                                                                 As stated in the first finding,
    Poor-quality care was also a common problem
                                                                 reviewers found quality of care
                            within individual stays              problems associated with
                      sequences of consecutive inpatient stays. Reviewers also found quality
                      of care issues in their stay-specific reviews of the 407 individual
                      inpatient stays within these sequences. Reviewers found that
                      10 percent of individual inpatient stays were associated with poor
                      quality of patient care. An additional 3 percent of inpatient stays
                      reflected other problems including medically unnecessary admission
                      and treatment, inappropriate treatment and setting of care, and
                      premature discharge.
                      Ten percent of individual stays in consecutive inpatient stay sequences
                      involved poor quality of patient care.
                      Physicians were asked to determine whether the medical records for
                      each individual stay in the sequences under review indicated problems
                      with the quality of patient care in the stay. Quality of care problems
                      were defined as medical errors, accidents, or patient care that did not
                      meet professionally recognized standards. Based on our analysis of
                      medical review data, we estimate that 10 percent of individual inpatient
                      stays involved problems with the quality of patient care. Medicare paid
                      an estimated $171 million in FY 2002 for these stays, or 9 percent of
                      total Medicare payments in that year for consecutive inpatient stays
                      involving one or more of the four facility types included in our review
                      ($1.9 billion).

                      Reviewers determined that poor quality of patient care was the only
                      problem associated with 8 percent of individual inpatient stays
                      reviewed. Two percent of stays were associated with poor quality of
                      patient care as well as other problems, including medically unnecessary
                      admission, medically inappropriate care setting, treatment that was not
                      appropriate to the unit or hospital where it occurred, and premature
                      discharge.
                      Most quality of care problems in these individual stays resulted from poor
                      management of patient care and medical errors.
                      Most of the quality of care problems that reviewers identified among
                      individual inpatient stays were categorized as poor management of

    OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S          11
F   I N D I N G        S


                      patient care and medical errors. Similar to our findings regarding
                      sequences associated with quality of care problems, poor management of
                      patient care in these individual stays involved medical staff failing to
                      treat patients in a timely manner; exhibiting poor clinical knowledge;
                      performing inadequate planning; and failing to properly evaluate,
                      diagnose, and treat their patients.

                      Reviewers also described specific medical errors that resulted in poor
                      quality of patient care. Examples of these medical errors included drug
                      overdoses, inadequate prevention of blood clots, misplaced pacemaker
                      wires, improper administration of intravenous fluids, and
                      administration of inappropriate or ineffective drugs. The quality of care
                      problems that reviewers found in the individual inpatient stays often
                      contributed to the need for multiple inpatient stays in related
                      sequences.
                      An additional 3 percent of individual stays in consecutive inpatient stay
                      sequences were not associated with poor-quality care, but involved
                      medically unnecessary admission and treatment, inappropriate treatment
                      and setting of care, and premature discharge.
                      Poor quality of care was the most common problem associated with the
                      individual inpatient stays reviewed; however, reviewers found other
                      problems with individual inpatient stays. An additional 3 percent of
                      stays reflected problems such as medically unnecessary admission,
                      medically inappropriate care setting, treatment that was not
                      appropriate to the type of unit or hospital where it occurred, medically
                      unnecessary treatment, and premature discharge.




    OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S        12
    ..            R E COM MEN D A T I 0 "N 5


                          Medical review of sequences of consecutive Medicare inpatient stays
                          revealed instances of poor quality of patient care and unnecessary
                          fragmentation of health care servces across multiple stays. Physician
                          reviewers' examination of medical records for sequences of consecutive
                          inpatient stays provided context that would not have been available
                          using a random sample of  individual inpatient stays. This approach
                          enabled reviewers to analyze the consecutive nature of these stays and
                          identify the broader impacts of poor-quality care and unnecessary
                          fragmentation of care beyond the level of an individual inpatient stay.
                         QIOs are responsible for ensuring that the quality of health care
                         servces provided to Medicare beneficiaries meets appropriate
                         standards. Both QIOs and fiscal intermediaries share responsibilties
                         for ensuring that servces provided in the four types of inpatient
                         facilities included in our review are medically reasonable and necessary
                         and are biled correctly. Therefore, to address the Medicare program
                         vulnerabilties discussed   in this report, we recommend that CMS:
                         (1) Direct QIOs to monitor the quality of inpatient services provided within
                         sequences of consecutive Medicare inpatient stays involving acute care
                         hospitals, skiled nursing swing beds, rehabiltation units, and psychiatric
                         units; and (2) encourage QIOs and fiscal intermediaries, as appropriate, to
                         monitor the medical necessity and appropriateness of inpatient services
                         provided within these sequences of consecutive Medicare inpatient stays.
                         This monitorig should be conducted through periodic reviews of a
                         sample of inpatient servces that were part of sequences of consecutive
                        inpatient stays to target the types of problems found during this
                        inspection, including poor quality of care and unnecessary
                        fragmentation of care.
                        (3) Reinforce efforts to educate providers about the appropriate uses of
                        skiled nursing swing beds.
                        CMS and its contractors should ensure that physicians and other acute
                        care hospital staff understand and comply with Medicare rules regarding
                        the appropriate uses of skiled nursing swing beds in acute care hospitals.
                        In addition to these recommendations, we will forward information on
                        cases that reflected poor quality of patient care, unnecessary
                        fragmentation of servces, medically unnecessary admission and
                        treatment, and inappropriate treatment and setting of care to CMS for
                        review and appropriate action.

OEI.03.01.00430         CONSECUTIVE MEDICARE INPATIENT STAYS
                                                                                               13
    R   E C O     M M E N D A T                         I O N               S 




                      AGENCY COMMENTS
                      CMS concurred with OIG’s assessment of consecutive Medicare inpatient
                      stays, but believes that existing mechanisms already largely address our
                      recommendations. CMS stated that periodic reviews of sequences of
                      consecutive inpatient stays are not warranted and contended that current
                      QIO activities functionally cover the first and second of OIG’s
                      recommendations. CMS agreed with OIG’s third recommendation and
                      indicated that it will prepare a “Medlearn Matters” provider education
                      article that will reference appropriate manual sections to remind providers
                      of the appropriate uses of skilled nursing swing beds.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We continue to believe that CMS should direct QIOs to monitor the
                      quality of services provided within sequences of consecutive inpatient
                      stays, and should encourage QIOs and fiscal intermediaries to monitor
                      the medical necessity and appropriateness of inpatient services provided
                      within these sequences of stays. We recognize that QIOs and fiscal
                      intermediaries may examine selected individual inpatient stays for
                      medical necessity, proper coding, and, in some cases, quality of care.
                      However, current efforts do not focus on sequences of consecutive
                      inpatient stays and could not detect the types of problems we found in
                      our review.

                      CMS stated that QIOs conduct provider-wide quality improvement
                      activities and review beneficiary complaints about the quality of care
                      delivered in any setting. QIOs’ quality improvement projects, conducted
                      as part of CMS’s Health Care Quality Improvement Program, are
                      strictly voluntary collaborations between QIOs and providers to promote
                      optimal care practices. These projects do not involve any routine or
                      provider-specific case reviews to evaluate quality of care. We
                      acknowledge that QIOs are required to conduct specific types of case
                      reviews in response to beneficiary complaints. However, these are
                      reactive, case-by-case reviews that do not reflect broad monitoring for
                      quality that periodic reviews of a random sample of sequences of
                      consecutive Medicare inpatient stays would afford.

                      CMS noted that QIOs conduct case reviews of inpatient hospital
                      services as part of the Hospital Payment Monitoring Program. It is our
                      understanding that the Clinical Data Abstraction Centers screen a large
                      sample of individual inpatient services for medical necessity and proper


OEI-03-01-00430       C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S       14
    R   E C O     M M E N D A T                         I O N               S


                      coding of services. Sample services are not screened for potential
                      quality of care concerns. Only individual inpatient services that fail to
                      pass the initial screening process undergo a QIO case review, where
                      quality of care concerns may be detected. Since individual inpatient
                      stays are sampled, the Clinical Data Abstraction Center’s screening
                      process could not detect problems within sequences of consecutive
                      inpatient stays.

                      Additionally, CMS stated that fiscal intermediaries “will continue to
                      actively pursue data analysis efforts regarding consecutive inpatient stays
                      and perform medical review if aberrant billing patterns are defined.” We
                      are not aware that fiscal intermediaries have ever conducted or are
                      currently conducting data analysis and/or medical review activities
                      regarding the sequences of consecutive inpatient stays we included in our
                      inspection. According to Chapter 1 of the “Medicare Program Integrity
                      Manual,” fiscal intermediaries alone could not conduct such reviews, as
                      QIOs are the sole entities responsible for oversight of inpatient acute care
                      hospital services.

                      We support CMS’s planned effort to prepare and distribute a “Medlearn
                      Matters” provider education article to remind providers of the appropriate
                      uses of skilled nursing swing beds.




OEI-03-01-00430       C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S         15
  ∆         A P P E N D I X                                         ~           A

         Estimates and Confidence Intervals

         Table 1: Sequence Counts, Point Estimates, and Confidence Intervals (n=120 Sequences)
                                                                                        Sequence
                                                                                           Count                Point Estimate         95% Confidence Interval

         Sequences Associated With Poor Quality of Care and
                                                                                                     18                20.14%                  11.30% - 28.98%
         Unnecessary Fragmentation of Health Care Services

         Estimated Medicare Payments for Sequences of
         Consecutive Inpatient Stays Associated With Poor
                                                                                                                 $266,711,464       $154,692,649 - $378,730,279
         Quality of Care and Unnecessary Fragmentation of
         Health Care Services
         Source: Independent medical review contractor, OIG analysis of medical review results



         Table 2: Stay Counts, Point Estimates, and Confidence Intervals (n=407 Inpatient Stays)

                                                                                                   Stay Count      Point Estimate     95% Confidence Interval

         Inpatient Stays Associated With Poor Quality of Care                                             33               9.51%                5.45% - 13.57%


         Inpatient Stays Associated With Poor Quality of Care Only                                        29               7.91%                4.68% - 11.14%

         Inpatient Stays Associated With Poor Quality of Care in
                                                                                                           4               1.60%                 0.03% - 3.17%
         Addition to Other Problems

         Inpatient Stays Associated With Medically Unnecessary
         Admissions, Medically Unnecessary Treatment,
                                                                                                           9               3.21%                 0.84% - 5.58%
         Inappropriate Setting, Premature Discharge, and Treatment
         That Was Not Appropriate to the Facility Where It Occurred


         Estimated Medicare Payments for Consecutive Inpatient
                                                                                                                     $171,457,370   $96,778,160 - $246,136,580
         Stays Associated With Poor Quality of Care

         Source: Independent medical review contractor, OIG analysis of medical review results




OEI-03-01-00430                    C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S                                                         16
  ∆         A P P E N D I X                             ~            B


           Centers for Medicare & Medicaid Services’ Comments




OEI-03-01-00430        C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S   17
    A   P   P E N D   I X ~           B            





OEI-03-01-00430       C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S   18
  ∆
        E N D N O T E S



                    1	      For purposes of payment, an acute care hospital stay is assigned to
                            one of approximately 500 categories called diagnosis related groups
                            (DRG) based on the patient’s diagnoses, demographic information,
                            and medical procedures performed during the stay. As some patients
                            require more intensive services and procedures than others, Medicare
                            reimbursement amounts vary depending on the DRG assigned to a
                            stay. CMS pays for hospital inpatient care at a predetermined rate
                            per discharge, not based on length of stay. For particular cases that
                            are unusually costly, known as outlier cases, the payment is
                            increased. This additional payment is designed to protect the
                            hospital from large financial losses due to unusually expensive cases.

                    2	      As specified in 42 CFR § 1004.1,

                                gross and flagrant violation means a violation of an obligation has
                                occurred in one or more instances which presents an imminent
                                danger to the health, safety, or well-being of a program patient or
                                places the program patient unnecessarily in high-risk situations.

                         Health care provider obligations under the Social Security Act (the
                         Act) are specified at section 1156(a):

                                It shall be the obligation of any health care practitioner and any
                                other person (including a hospital or other health care facility,
                                organization, or agency) who provides health care services for
                                which payment may be made (in whole or in part) under this Act, to
                                assure, to the extent of his authority that services or items ordered
                                or provided by such practitioner or person to beneficiaries and
                                recipients under this Act — (1) will be provided economically and
                                only when, and to the extent, medically necessary; (2) will be of a
                                quality which meets professionally recognized standards of health
                                care; and (3) will be supported by evidence of medical necessity and
                                quality in such form and fashion and at such time as may
                                reasonably be required by a reviewing peer review organization in
                                the exercise of its duties and responsibilities.

                    3	      The MedPAR file is made up of final action records for all Medicare
                            beneficiaries using inpatient facility services. Each record
                            summarizes all services provided to a beneficiary during an inpatient
                            facility stay from the time of admission to the time of discharge. The
                            file is created quarterly from CMS’s National Claims History
                            100 Percent Nearline File.

OEI-03-01-00430     C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S                  19
    E N D N O T E S


                  4       Physician reviewers were asked, “In your professional opinion, was
                          the setting a medically appropriate care setting for this stay?” To
                          answer this question, reviewers considered the overall condition and
                          treatment needs of the patient upon admission to the care setting.

                  5       Physician reviewers were asked, “In your professional opinion, does it
                          appear that the treatment provided during this stay was appropriate
                          to the type of unit or hospital where it occurred?” To answer this
                          question, reviewers considered the specific treatments rendered to
                          the patient during the stay to determine whether these treatments
                          were appropriately provided in the unit/hospital where they occurred.

                  6       Physician reviewers were asked, “Does it appear that services were
                          unnecessarily fragmented across the multiple inpatient stays in this
                          sequence?” We provided reviewers with the following examples to
                          define the concept of unnecessary fragmentation. Example A: A
                          patient is discharged to a rehabilitation unit after hip replacement.
                          After several days in the rehabilitation unit, the patient is
                          transferred to a swing bed, where the same course of rehabilitation
                          and general care continues. Example B: A patient is admitted to
                          acute care with pneumonia. Initial laboratory findings include a
                          glucose level of 350 milligrams per deciliter, although the patient has
                          not been previously diagnosed with diabetes. Treatment during the
                          initial acute stay focuses solely on the pneumonia. The patient is
                          discharged to a swing bed, where a urinalysis is positive for sugar.
                          On day 5 of the swing bed stay, blood tests again show abnormal
                          glucose levels and the patient is readmitted to acute care for
                          uncontrolled diabetes. Example C: A patient is admitted to acute
                          care with symptoms of psychosis. Laboratory studies rule out any
                          organic cause and a diagnosis of schizophrenia is made. Treatment
                          with medication is initiated, and on day 3 the patient is admitted to
                          the psychiatric unit. Medical treatment continues in the psychiatric
                          unit until day 14, when the patient is transferred back to acute care
                          without explanation. On day 20, the patient is released on oral
                          antipsychotics.




OEI-03-01-00430   C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S                20
  ∆
  ∆
        A P
              C P
                K EN NO DW I L X E D~ G AM E N T S




                      This report was prepared under the direction of Robert A. Vito, Regional
                      Inspector General for Evaluation and Inspections in the Philadelphia
                      regional office, and Linda M. Ragone, Deputy Regional Inspector
                      General. Other principal Office of Evaluation and Inspections staff who
                      contributed include:

                      Amy Sernyak, Project Leader
                      Edward Burley, Program Analyst

                      Bambi Straw, Program Specialist

                      Doris Jackson, Program Specialist

                      Barbara Tedesco, Mathematical Statistician

                      Robert Gibbons, Program Analyst




OEI-03-01-00430       C O N S E C U T I V E M E D I C A R E I N PAT I E N T S TAY S      21
